•



                                                                 United States Department of State
                                                                 and the Broadcasting Board of Governors

                                                                 Office ofInspector General


                                                                                             August 7, 2014


     Mr. Nidal Z. Zayed
     President and Chief Executive Officer
     Pernix-Serka
     151 East 22nd Street
     Lombard, IL 60148

     Dear Mr. Zayed:

     There have been several recent articles written about the use of confidentiality and/or
     nondisclosure agreements by government contractors and grantees that limit or prohibit
     employees from reporting fraud , waste, or abuse to federal authorities. I am deeply concerned
     about the use of such agreements because of their potential to discourage whistleblowers, who
     have historically provided the Office of Inspector General with valuable information resulting in
     numerous substantiated fraud investigations. Moreover, federal law, including subpart 3.9 of the
     Federal Acquisition Regulation, prohibits reprisal against employees of federal contractors,
     subcontractors, and grantees who report fraud or other wrongdoing to a recipient, such as an
     Inspector General, authorized to receive such information.

     Therefore, I am initiating an inquiry of the companies with the largest dollar volume of
     Department of State contract awards to determine whether they require their employees to sign
     such agreements. To aid in this inquiry, I would appreciate your response to the following
     questions and requests:

        (1) Has any employee or outside consultant or advisor acting on behalf of your company
            asked any current or former employees who perform or performed work under any State
            Depa1tment contract, cooperative agreement, grant, or other instrument to sign any
            agreement that could be interpreted to limit or prohibit their ability to report fraud, waste,
            or abuse to federal officials or that requires an employee with knowledge of fraud, waste,
            or abuse to first contact company officials or representatives?

        (2) If so, please provide a copy of all such agreements and the number of current and former
            employees who have signed such agreements. Please indicate the contract(s), cooperative
            agreement(s), grant(s), or other instruments under which each employee performed work.

        (3) Has your company ever attempted to enforce provisions of such agreements or taken 

            disciplinary or other adverse action against any current or former employees who 

            reported or attempted to report fraud, waste, or abuse to a federal official? 





     Address correspondence to: U.S. Department of State, Office of Inspector General, Washington, D.C. 20522-0308
•



       (4) Does your company utilize a standard employee or consultant contract or an employee
           handbook? If so, please provide a copy of the current version(s) and any version(s) used
           over the past two years.

       (5) Does your company have a corporate policy that encourages employees to report
           knowledge of fraud, waste, or abuse; provides appropriate avenues to report such
           knowledge; and prohibits retaliation against any employee who does so? If so, please
           provide documentation of such policies, when they were enacted, and if they have been
           changed during the past two years.


    Please provide the information listed above by September 5, 2014. When preparing your responses,
    please be sure to rewrite the question and then set forth your response.

    Should you have any questions about this request, please contact Jeffrey McDermott, Senior
    Investigative Counsel, at (202) 663-0366.

    Thank you for your assistance in this matter.

                                                    Sincerely,




                                                    Steve A. Linick
                                                    Inspector General
